          Office of Audits
          Office of Inspector General
          U.S. General Services Administration



     Recovery Act Report – Funding for Modifications
     50 UN Plaza Renovation Project
     Audit of PBS’s Major Construction and
     Modernization Projects Funded by the American
     Recovery and Reinvestment Act of 2009
     Report Number A090172/P/R/R13003
     March 27, 2013




A090172/P/R/R13003
              Office of Audits
              Office of Inspector General
              U.S. General Services Administration


 DATE:            March 27, 2013

 TO:              Dorothy Robyn
                  Commissioner, Public Buildings Service (P)

                  Kevin Richards
                  Acting Regional Commissioner
                  Public Buildings Service, Pacific Rim Region (9P)

 FROM:            Marisa A. Roinestad
                  Program Director
                  Real Property Audit Office (JA-R)

 SUBJECT:         Recovery Act Report – Funding for Modifications
                  50 UN Plaza Renovation Project
                  Audit of PBS’s Major Construction and Modernization Projects
                  Funded by the American Recovery and Reinvestment Act of 2009
                  Audit Number A090172/P/R/R13003

During our oversight of the General Services Administration’s (GSA) major
modernization and new construction projects, funded by the American Recovery and
Reinvestment Act (Recovery Act), we noted concerns regarding the issuance of
contract modifications for the 50 United Nations (UN) Plaza Renovation Project in the
Pacific Rim Region (Region 9) that warrant your attention. The Public Buildings Service
(PBS) issued a price-to-be-determined-later (PDL) modification that created an invalid
obligation and allowed unused Recovery Act funds to expire. In addition, PBS used
Minor Repairs and Alterations (R&A) funds to supplement the Recovery Act on this
project without notifying Congress. PBS also used Building Operations funding for
tenant improvements in support of other GSA components.

PBS created an invalid obligation resulting in the expiration of $4.2 million of
Recovery Act funds.

PBS improperly issued a modification using the PDL methodology that obligated funds
in excess of the amount awarded to the contractor. As a result, $4.2 million of Recovery
Act funds were allowed to expire. After being notified, PBS subsequently corrected the
improper obligation and later used the expired funds as a proper upward adjustment.



A090172/P/R13003                       1
Improper Use of Price-to-be-Determined-Later Modification

On September 17, 2010, PBS issued Modification PC 27 against Contract Number GS-
09P-09-KT-C-0065, 1 using Recovery Act funds. The modification increased the
project’s Guaranteed Maximum Price to account for changes to elements of the project.
The contract file contained two signed modifications, both labeled PC 27: a modification
labeled as "internal" for $7,032,000 and a modification issued to the contractor at a Not-
to-Exceed (NTE) amount of $2,800,000. In processing the modification, PBS obligated
the internal value amount of $7,032,000.

The modification was improper in two ways. First, the modification’s use of the PDL
methodology was improper. Although the modification does not state that it was issued
using the PDL methodology, the files reflect this intention as the project team was to
continue negotiations with the contractor for these work items after the modification was
issued. The authority in the General Services Administration Acquisition Manual
(GSAM) to use a PDL modification is limited to situations where work must proceed
prior to the completion of price negotiations for an equitable adjustment. 2 However, the
work for this modification did not begin until approximately six months later in March
2011.

Second, by using two versions of the modification with different amounts, PBS obligated
funds in excess of the amount awarded to the contractor and created an invalid
obligation. PBS stated that it did this in order to obligate funding without revealing
GSA’s negotiation position.

However, it appears that the primary reason the modification was handled in this
manner was to prevent the PBS Program Management Office (PMO) from
reprogramming the funding to another project. According to the “Business Clearance
for Modification of Construction Services,” the urgency behind the modification was to
obligate these funds to meet the PMO’s Recovery Act obligation deadline of September
30, 2010; otherwise, the Recovery Act funds could be reprogrammed to other projects.

Nonetheless, since PBS did not incur a liability in excess of the $2,800,000 awarded to
the contractor, the difference between that amount and the amount obligated
($7,032,000) constitutes an improper obligation of $4,232,000. No further contract
actions related to the work items of PC 27 took place to definitize the project value
before the Recovery Act funds expired on September 30, 2011. Subsequently, PBS
issued Modification PC 44 in January 2012 using the expired funds to increase the NTE
amount by $2,788,685 for a total NTE amount of $5,588,685.


1
  This was the Construction Manager as Constructor contract for the 50 UN Plaza Renovation project.
2
  GSAM 552.243-71 (m) states, “If the Contracting Officer determines that it is in the Government’s
interest that the Contractor proceed with a change before negotiation of an equitable adjustment is
completed, the Contacting Officer may order the Contractor to proceed on the basis of a unilateral
modification to the contract increasing or decreasing the contract price by an amount to be determined
later.”



A090172/P/R/R13003                            2
Early Notification and PBS Corrective Action

On February 9, 2012, we notified PBS management of our concerns regarding
Modifications PC 27 and PC 44. We questioned the improper obligation and noted that
Recovery Act funds expired on September 30, 2011. As a result, PBS issued
Modification PA 45 correcting the improper obligation of the $4,232,000 in Recovery Act
funds.

Subsequently, on May 3, 2012, PBS issued Modification PS 48 to definitize the
Modification PC 27 work items and obligate these funds. PBS noted that the action to
obligate these funds was based on an Office of General Counsel opinion allowing the
use of expired funds for valid upward adjustments. In reviewing the opinion, it appears
this modification falls within the parameters allowing for use of expired funds.

Management Comments

In its comments, management agreed with the audit finding and concurred with
Recommendations 1 and 2 (See Appendix B).

PBS supplemented project funds without notifying Congress.

PBS issued five contract modifications using Minor R&A funds to supplement Recovery
Act funding. PBS did not notify Congress of this, as recommended by PBS policy.
These modifications included relocating the server room (PC 25), a sally port security
entrance (PC 37), upgrading the café (PC 38), wireless mounts (PS 40), and installing a
photovoltaic panel (PS 41).

Minor R&A funds are part of PBS’s Capital Program and are generally intended for
repair and alteration work below the prospectus limit. 3 As part of its Recovery Act
implementation, PBS issued guidance entitled, “ARRA Funding and Prospectus
Guidance” to clarify how Minor R&A funds could be used in combination with Recovery
Act funding. This policy states that “if the funding is being used for different scope, even
if it is on the same project or in the same building, and the funding exceeds the
prospectus threshold, that does not necessitate notification.” Alternately, “if the funding
is for the same scope on the same project, it is recommended that GSA notifies its
authorizing committees.”

PBS management provided a two part explanation for using the Minor R&A funds. First,
the modifications were for program changes beyond the original scope that was funded
by the Recovery Act. Second, tenant-requested changes of this nature are normally
funded through Reimbursable Work Authorizations (RWA); however, since GSA is the


3
 The prospectus threshold is adjusted annually and was $2.79 million for alteration projects in fiscal year
2012. Congressional approval is required for projects above the prospectus limit.



A090172/P/R/R13003                               3
tenant agency, PBS asserted that RWA funding was not available and that Minor R&A
funds were an appropriate funding source.

Neither of these explanations supports PBS’s actions. First, work such as the café
upgrade and photovoltaic panel are covered in the original project scope rather than
representing new or different scope. The renovation of the UN Plaza building is a full
modernization for seismic upgrades, a new heating and ventilation system, upgrades to
electrical and plumbing systems, full roof replacement, life-safety system improvements,
installation of photovoltaic systems, and restoration of historical building interiors. The
project includes work such as telecommunications, security upgrades, energy systems,
and food service.

Second, other work in the modifications, such as the wireless mounts, would typically be
funded by tenants via RWAs and not through PBS’s Capital Program. In this case, PBS
did not have the legal authority to use PBS’s Capital Program funds for the tenant-
requested improvements. Therefore, even though the building tenant will be the GSA
Pacific Rim Regional Headquarters, the use of Minor R&A funds was not appropriate.

Given these circumstances, the use of Minor R&A funds to supplement the Recovery
Act funds required congressional notification in accordance with PBS policy.

Management Comments

In its comments, management partially disagreed with the audit finding but concurred
with Recommendation 3 (See Appendix B).

Office of Inspector General Response

We reiterate our position that the modifications were for changes within the original
project scope.

PBS funds were used for other tenant costs.

PBS Building Operations funding was used to pay for tenant improvements in support of
other GSA components. According to the GSA Budget Administration Handbook,
Building Operations funds are primarily for the operational costs of owned and leased
buildings and the management and administration of PBS programs. However, on the
following modifications, PBS Building Operations funds were used for tenant
improvements in support of other GSA components, not just PBS:

   •   PBS issued an administrative modification to transfer funds for the wireless
       mounts in Modification PS 40 from Minor R&A to Building Operations,
       subsequent to our review. These improvements appear to be for GSA, the
       tenant agency, not just PBS.
   •   PBS used Building Operations funds to provide design and construction
       administrative services for tenant-requested re-design of workspace. One of


A090172/P/R/R13003                       4
       these tenants was the Federal Acquisition Service. During our audit, we
       discussed the funding of Modification PC 46 4 with PBS and were told that the
       PBS budget staff would request the Federal Acquisition Service fund its portion
       of Modification PC 46.

Usually, tenant-requested changes are funded by the tenant agency using an RWA. In
these cases, PBS inappropriately funded the tenant improvements using its Building
Operations funds rather than obtaining an RWA from the other GSA components. As a
result, Building Operations funds are being used to fund the costs of other GSA
components rather than solely for the management and administration of PBS
programs.

Management Comments

In its comments, management partially disagreed with the audit finding but concurred
with Recommendation 4 (See Appendix B).

Office of Inspector General Response

We reiterate our position that PBS Building Operations funds should not be used to pay
for tenant improvements in support of other GSA components.

Recommendations

We recommend that the Commissioner, Public Buildings Service and the Acting
Regional Commissioner, Public Buildings Service, Pacific Rim Region:

       (1). Notify Congress and the Office of Management and Budget of inaccurate
            Recovery Act financial reporting on the 50 UN Plaza project caused by the
            invalid obligation. This can be done as part of the corrective actions taken in
            response to alert report, Limited Scope Audit of Invalid Obligations and
            Contingency Funding for Recovery Act Projects, Report Number
            A120174/P/R/W13001, dated October 24, 2012.

       (2). Develop and implement policy to establish appropriate use of PDL
            modifications and to prevent the obligation of funds in excess of awards
            made to contractors.

       (3). Notify Congress and the Office of Management and Budget of the use of
            Minor R&A funds to supplement the 50 UN Plaza Recovery Act project.




4
 Modification 46 to the Architect/Engineer contract with HKS, Inc. (contract number GS-09P-09-KT-C-
0048)



A090172/P/R/R13003                            5
      (4). Obtain funding from other GSA components for the cost of tenant-requested
           improvements or notify Congress and the Office of Management and Budget
           about the use of Building Operations funds for other GSA components.

We appreciate the support provided throughout this audit. If you have any questions
concerning this report, please contact me at (202) 273-7241.

Sincerely,


Marisa A. Roinestad
Program Director
Real Property Audit Office (JA-R)




A090172/P/R/R13003                   6
Appendix A – Purpose, Scope, and Methodology
Background

The Recovery Act provided GSA with $5.55 billion to convert federal buildings into High-
Performance Green Buildings, as well as to construct federal buildings, courthouses,
and land ports of entry. The Recovery Act mandated that $5 billion of the funds be
obligated by September 30, 2010, and that the remaining funds be obligated by
September 30, 2011. The GSA Office of Inspector General is conducting oversight of
the projects funded by the Recovery Act.

Purpose

The objective of the Office of Inspector General’s Recovery Act oversight is to
determine if PBS is planning, awarding, and administering contracts for major
construction and modernization projects in accordance with prescribed criteria and
Recovery Act mandates.

Scope

The scope of our review included several contract modifications for the Construction
Manager as Constructor and Architect/Engineer contracts for the 50 United Nations
Plaza Renovation project.

Methodology

To accomplish the objective we conducted fieldwork in the Pacific Rim Region,
reviewed contract files and other pertinent project documents, met with PBS project
staff, and reviewed applicable guidance and regulations.

Except as noted below, we conducted the audit between January 2012 and August
2012 in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

The planning for this review is based on the audit plan for oversight of Recovery Act
projects, as well as review guidance being applied to all Recovery Act projects. A
separate audit guide was not prepared for this project.

Internal Controls

As this work was performed under the continuing oversight of all GSA Recovery Act
projects, management controls are currently under assessment.         Only those
management controls discussed in the report have been assessed.


A090172/P/R/R13003                    A-1
Appendix B – Management Comments




A090172/P/R/R13003    B-1
Appendix B – Management Comments (cont.)




A090172/P/R/R13003      B-2
Appendix C – Report Distribution
Commissioner, PBS (P)

Acting Deputy Commissioner, PBS (PD)

Acting PBS Chief of Staff (PB)

Acting Director, PBS Executive Response (PBA)

Regional Recovery Executive, PBS, Pacific Rim Region (9P2)

National Program Office ARRA Executive, PBS (PCB)

Chief of Staff, PBS Office of Construction Programs (PCB)

Regional Administrator, Pacific Rim Region (9A)

Acting Regional Commissioner, PBS, Pacific Rim Region (9P)

Regional Counsel, Pacific Rim Region (LD9)

Division Director, GAO/IG Audit Response Division (H1C)

Audit Liaison, PBS (BCP)

Audit Liaison, PBS, Pacific Rim Region (9P1PF)

Assistant Inspector General for Auditing (JA)

Director, Audit Planning, Policy, and Operations Staff (JAO)

Deputy Assistant Inspector General for Investigations (JID)

Director, Office of Internal Operations (JI-I)

Investigator, Office of Internal Operations (JI-I)




A090172/P/R/R13003                       C-1
